FX

C@OQCKLE

Le g al B rie fs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No.
OSCAR ERNESTO MELENDEZ,
Petitioner,

Vv.
KEVIN K. McALEENAN, Acting Secretary,
U.S. Department of Homeland Security;
LEE CISSNA, United States Citizenship and Immigration
Services Director; and MARK SIEGL, Field Office Director,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 3055 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 24th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . LS Qudraw- ,
My Commission Expires Nov 24, 2020 Z

Notary Public Affiant

 

 

38754
